s

APPENDIX A

b)

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF IOWA
WESTERN DIVISION
CEDAR RAPIDS BANK AND TRUST
COMPANY,
No. C17-4035-LTS

Plaintiff,

ORDER AND
ENTRY OF JUDGMENT

vs.
MAKO ONE CORPORATION, et al.,
Defendants.

I.

INTRODUCTION

This case is before me on a motion (Doc. No. 75) for default judgment or, in the
alternative, summary judgment filed by plaintiff Cedar Rapids Bank and Trust Company
Defendants have not filed a resistance.

(CRST) on December 11, 2017.

resistance was due on or before January 2, 2018.
Fed. R. Civ. P. 6(a).

The

See Local Rules l(j) and 56(b) and

CRBT filed a reply (Doc. No. 78) on January 3, 2018, requesting

that its motion be granted pursuant to Local Rule 56(c).
but I find that it is not necessary.

II.

CRBT requested oral argument,

See L.R. 7(c).

PROCEDURAL BACKGROUND

This case involves a default on a bond transaction that financed the development
and historic renovation of the Badgerow Building in downtown Sioux City, Iowa.
Following the default on December 12, 2016, CRBT issued a written notice of default
on March 28, 2017.

On April 17, 2017, CRBT filed a petition in equity in the Iowa

District Court for Woodbury County.

Defendants removed the case to this court on

May 16, 2017, invoking the court’s diversity jurisdiction.

The petition includes the

following claims:

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 1 of 23

• Count 1 - Breach of Contract Against Badgerow under the Bond and
Indenture
• Count 2 - Breach of Contract Against DeBolt under the DeBolt Guaranty
• Count 3 - Breach of Contract Against Mako under the Mako Guaranty
• Count 4 - Foreclosure of the Fee Mortgage
• Count 5 - Foreclosure of the Leasehold Mortgage
• Count 6 - Appointment of Receiver
• Count 7 - Replevin; Claim of Personal Property; and
• Count 8 - Priority of Liens
On October 30, 2017, I issued an order (Doc. No. 64) granting CRBT’s motion
to appoint a receiver.

The Receiver submitted its oath (Doc. No. 65) and bond (Doc.

No. 69) shortly thereafter.

On November 2, 2017, I issued an order (Doc. No. 68)

denying defendants’ motion to dismiss for failure to join a necessary party.
None of the defendants have filed an answer, which was due November 16, 2017.
See Fed. R. Civ. P. 12(a)(4)(A) (“if the court denies the motion or postpones its
disposition until trial, the responsive pleading must be served within 14 days after notice
of the court’s action.”).

On December 11, 2017, CRBT filed its motion (Doc. No. 75)

for default judgment or, in the alternative, summary judgment.

As mentioned above,

defendants have not filed a resistance and the time for doing so has passed.
CRBT requests that I grant its motion pursuant to Local Rule 56(c), which states:
“If no timely resistance to a motion for summary judgment is filed, the motion may be
granted without prior notice from the court.”

However, before granting such relief I

must consider whether CRBT, as the moving party, has met its burden of showing that
summary judgment is appropriate.

See Maxwell v. Linn County Correctional Center,

310 F. App’x 49, 49-50 (8th Cir. 2009) (citing Johnson v. Boyd-Richardson Co., 650
F.2d 147, 149 (8th Cir. 1981) (holding that the court has the “duty to inquire into the
merits of [a summary judgment] motion and to grant or deny it, as the case may be, in
2

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 2 of 23

accordance with law and the relevant facts” when a party fails to comply with local rules
deadlines)); Fed. R. Civ. P. 56(e) (“If a party fails to properly support an assertion of
fact or fails to properly address another party's assertion of fact as required by Rule
56(c), the court may ... consider the fact undisputed for purposes of the motion, ... grant
summary judgment if the motion and supporting materials—including facts considered
undisputed—show that the movant is entitled to relief... or ... issue any other appropriate
order”).
III.
A.

LEGAL STANDARDS

Default Judgment Standards
Federal Rule of Civil Procedure 55 provides, in pertinent part, as follows:
(a) Entering a Default. When a party against whom a
judgment for affirmative relief is sought has failed to plead or
otherwise defend, and that failure is shown by affidavit or
otherwise, the clerk must enter the party's default.
(b) Entering a Default Judgment.
(1) By the Clerk. If the plaintiffs claim is for a sum
certain or a sum that can be made certain by
computation, the clerk-on the plaintiffs request, with
an affidavit showing the amount due-must enter
judgment for that amount and costs against a defendant
who has been defaulted for not appearing and who is
neither a minor nor an incompetent person.
(2) By the Court. In all other cases, the party must
apply to the court for a default judgment. A default
judgment may be entered against a minor or
incompetent person only if represented by a general
guardian, conservator, or other like fiduciary who has
appeared. If the party against whom a default judgment
is sought has appeared personally or by a
representative, that party or its representative must be
served with written notice of the application at least 7
3

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 3 of 23

days before the hearing. The court may conduct
hearings or make referrals—preserving any federal'
statutory right to a jury trial-when, to enter or
effectuate judgment, it needs to:
(A) conduct an accounting;
(B) determine the amount of damages;
(C) establish the truth of any allegation by evidence; or
(D) investigate any other matter.
Fed. R. Civ. P. 55(a)-(b).

B.

Summary Judgment Standards
Any party may move for summary judgment regarding all or any part of the claims

asserted in a case.

Fed. R. Civ. P. 56(a).

Summary judgment is appropriate when

“the pleadings, depositions, answers to interrogatories, and admissions on file, together
with affidavits, if any, show that there is no genuine issue of material fact and that the
moving party is entitled to a judgment as a matter of law.”

Celotex Corp. v. Catrett,

All U.S. 317, 322 (1986).
A material fact is one that
governing law.

9

i

might affect the outcome of the suit under the

Anderson v. Liberty Lobby, Inc., All U.S. 242, 248 (1986).

“the substantive law will identify which facts are material.”

Id.

Thus,

Facts that are

“critical” under the substantive law are material, while facts that are “irrelevant or
unnecessary” are not.

Id.

An issue of material fact is genuine if it has a real basis in the record, Hartnagel
v. Norman, 953 F.2d 394, 395 (8th Cir. 1992) (citing Matsushita Elec. Indus. Co. v.
Zenith Radio Corp ., 475 U.S. 574, 586-87 (1986)), or when “‘a reasonable jury could
return a verdict for the nonmoving party’ on the question,” Woods v. DaimlerChrysler
Corp., 409 F.3d 984, 990 (8th Cir. 2005) (quoting Anderson, All U.S. at 248).
Evidence that only provides “some metaphysical doubt as to the material facts,”
4

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 4 of 23

Matsushita, 475 U.S. at 586, or evidence that is “merely colorable” or “not significantly
probative,” Anderson, All U.S. at 249-50, does not make an issue of material fact
genuine.
As such, a genuine issue of material fact requires “sufficient evidence supporting
the claimed factual dispute” so as to “require a jury or judge to resolve the parties'
differing versions of the truth at trial.” Anderson, All U.S. at 248-49.

Essentially, a

genuine issue of material fact determination, and thus the availability of summary
judgment, is a determination of “whether a proper jury question [is] presented.”
249.

Id. at

A proper jury question is present if “there is sufficient evidence favoring the

nonmoving party for a jury to return a verdict for that party.”

Id.

The party moving for entry of summary judgment bears “the initial responsibility
of informing the court of the basis for its motion and identifying those portions of the
record which show a lack of a genuine issue.”
Celotex, 477 U.S. at 323).

Hartnagel, 953 F.2d at 395 (citing

Once the moving party has met this burden, the nonmoving

party must go beyond the pleadings and by depositions, affidavits, or otherwise, designate
specific facts showing that there is a genuine issue for trial.
Northwoods, 415 F.3d 910 (8th Cir. 2005).

Mosley v. City of

The nonmovant must show an alleged issue

of fact is genuine and material as it relates to the substantive law.

If a party fails to

make a sufficient showing of an essential element of a claim or defense with respect to
which that party has the burden of proof, then the opposing party is entitled to judgment
as a matter of law.

Celotex, All U.S. at 322.

In determining if a genuine issue of material fact is present, I must view the
evidence in the light most favorable to the nonmoving party.
587-88.

Matsushita, 475 U.S. at

Further, I must give the nodfnoving party the benefit of all reasonable

inferences that can be drawn from the facts.

Id.

However, “because we view the facts

in the light most favorable to the nonmoving party, we do not weigh the evidence or
attempt to determine the credibility of the witnesses.”

Kammueller v. Loomis, Fargo &

5

Case 5:17-cv-04035-LTS-!V!AR Document 80 Filed 01/11/18 Page 5 of 23

Co., 383 F.3d 779, 784 (8th Cir. 2004).

Instead, “the court's function is to determine

whether a dispute about a material fact is genuine.”

Quick v. Donaldson Co., Inc., 90

F.3d 1372, 1376-77 (8th Cir. 1996).

IV.
A.

ANALYSIS

Undisputed Facts
Due to the lack of a responsive pleading, I deem all facts contained in CRBT’s

statement of material facts to be undisputed.
56(e)(2).

See Local Rule 56(b); Fed. R. Civ. P.

Those facts are summarized as follows:

On August 30, 2013, CRBT and defendants Badgerow Jackson LLC (Badgerow),
Mako One Corporation (Mako) and Bruce DeBolt (DeBolt) entered into a Trust Indenture
(Doc. No. 4-1)1 to evidence a bond-financing transaction for the rehabilitation of the
Badgerow building.

As part of this transaction, Badgerow and CRBT executed a Bond

(Doc. No. 4-2) in the amount of $6,000,000.

Badgerow’s obligations were secured with

a mortgage, assignment of rents, fixture filing and a security agreement pursuant to which
Mako granted CRBT a mortgage lien against and security interest in all of the fee property
(Fee Mortgage), consisting of a vacant building designed for a restaurant or retail store
on the first floor and a data center on floors 2 through 12.

See Doc. No. 4-3.

If

rehabilitated in accordance with certain requirements, the property is expected to generate
significant federal historic rehabilitation tax credits as well as state tax credits for certified
historic structures.

Badgerow’s obligations under the Bond and Indenture were further

secured by a leasehold mortgage, assignment of rents, fixture filing and security
agreement (Leasehold Mortgage).

See Doc. No. 4-4.

Badgerow assigned CRBT all

of its interest in the leasehold property including all rights under the Master Lease dated

1 These documents are also provided in CRBT’s Appendix to its motion. See Doc. Nos. 75-4,
75-5 and 75-6.
6

Case 5:17-cv-04035-LTS-MAR Document 80 Fiied 01/11/18 Page 6 of 23

March 21, 2012, between Mako (landlord) and Badgerow (tenant of floors 2 through 12).
See Doc. No. 4-5.
Badgerow then entered into a sublease with Badgerow Jackson MT, LLC (MT),
leasing floors 2 through 12 to MT.

To further secure its obligations, Badgerow executed

and delivered to CRBT a pledge agreement in which Badgerow granted CRBT a security
interest in identified accounts (Accounts Pledge).

See Doc. No. 4-6.

Badgerow also

executed and delivered to CRBT a pledge agreement in which Badgerow and Mako
granted CRBT a security interest in the state tax credits (Tax Credits Pledge).

See Doc.

No. 4-7.
Additional security for Badgerow and DeBolt’s obligations included a pledge
agreement in which DeBolt granted CRBT a security interest in, among other things, his
membership units in Badgerow (Pledge of Badgerow Membership Interests).
No. 4-8.

See Doc.

DeBolt and the Arnold Celick, Jr. and Nancy Dauman Celick Revocable

Living Trust (the Trust) also executed and delivered to CRBT a stock pledge agreement,
pursuant to which DeBolt and the Trust granted CRBT a security interest in their stock
in Mako (Pledge of Mako Stock).

See Doc. No. 4-9.

Further security included an

assignment of project agreements, permits and contracts (Assignment of Project
Agreements), pursuant to which Badgerow assigned to CRBT all of its interest in the
agreements, contracts and related documents identified therein.

See Doc. No. 4-10.

MT also executed and delivered to CRBT an Assignment of Capital Contributions,
pursuant to which MT assigned to CRBT all of its interest in, among other things, capital
contributions paid and to be paid by Chevron U.S.A. Inc. (Chevron), the 99.99%
member of MT under an amended and restated operating agreement of MT dated May
31,2012.

See Doc. No. 4-11.

Mako and DeBolt also issued guaranties regarding their

obligations under the Bond and Indenture.' See Doc. Nos. 4-15 and 4-16.

The Mako

Guaranty is secured by the Fee Mortgage and fee property and the DeBolt Guaranty is
secured by the Pledge of Badgerow Membership Interests.
7

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 7 of 23

After multiple extensions of the maturity date, Badgerow, Mako and DeBolt
defaulted under the loan documents by, among other things, failing to pay all amounts
due under the Bond upon the Bond’s last amended maturity date of December 12, 2016.
Pursuant to a cross-default provision, this failure to make payments (constituting a default
under the Indenture) is also a default under the Assignment of Contributions, putting MT
in default as well.

CRBT issued a written default notice on March 28, 2017, and

demanded immediate payment in full of all amounts due under the Bond.

Pursuant to

the terms of the loan documents, interest began accruing under the Bond at the default
rate upon maturity.

As of November 30, 2017, the following sums (among others) are

due and owing to CRBT by Badgerow, Mako and DeBolt under the Bond:
Principal:
Interest:
Default Interest:
Release Fee:
Winthrop & Weinstine fees
Moore, Heffernan, Moeller,
Johnson, Meis, LLP fees
Mulvaney Barry fees
Lighthouse advances
Protective advances
Total:

$4,227,150.00
$245,081.03
$160,178.35
$130.00
$327,586.47
$24,522,05
$32,004.71
$60,000.00
$146,283.52
$5,222,936.13

Interest continues to accrue at the contractual rate of 10 percent, or $1,174.21 per day.
CRBT is also entitled to recover all collection costs associated with the loan documents,
including attorneys’ fees and costs, which have accrued and will continue to accrue in
connection with the defaults under the loan documents.
Badgerow, Mako and DeBolt have had information of and a reasonable
opportunity to pay the indebtedness under the Bond prior to this action,

The fee and

leasehold property are not used for agricultural purposes as defined in Iowa Code §
535.13, are not the residence of any defendant, are not a one-family or two-family
dwelling occupied by any defendant and are not the homestead of any defendant.
8

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 8 of 23

Badgerow is in default under the Bond and Indenture.

Based on Badgerow’s default,

DeBolt failed to perform under the DeBolt Guaranty and Mako failed to perform under
the Mako Guaranty.

Both the Fee Mortgage and Leasehold Mortgage provide that upon

a default, CRBT is entitled to foreclose on the mortgage.

The Fee Mortgage, Leasehold

Mortgage, Accounts Pledge, Tax Credits Pledge, Pledge of Badgerow Membership
Interests, Pledge of Mako Stock, Assignment of Project Agreements and Assignment of
Contributions (the Security Documents) all provide that upon a default, CRBT is entitled
to, among other things, repossess and foreclose on personal property constituting part of
the property, the accounts, the tax credits, the Badgerow membership interests, the Mako
stock, the project documents and the MT capital contributions (the Collateral). CRBT
requests a money judgment on its breach of contract claims, attorneys’ fees and costs, a
decree of foreclosure and an order for replevin.

B.

Legal Analysis
1.

Applicable Law

j

CRBT argues Iowa law applies to this dispute because this court sits in diversity
jurisdiction and Iowa is the forum state of the underlying dispute.

I agree.

See Klaxon

Co. v. Stentor Electric Mfg. Co., 313 U.S, 487, 496-97 (1941).

The financial and

security documents also state that Iowa law is the applicable law.

See Doc. Nos. 4-1

through 4-23.

2.

Default Judgment

CRBT argues it is entitled to default judgment due to defendants’ failure to file a
timely answer.

Rule 55 provides that when a defendant fails to “plead or otherwise

defend, and that failure is shown by affidavit or otherwise, the clerk must enter the party’s
default.”

Fed. R. Civ. P. 55(a).

Once a defendant’s default has been entered, the

plaintiff may request the entry of judgment by default.

Fed. R. Civ. P. 55(b).

9

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 9 of 23

Here, no defendant’s default has been entered.
judgment by default is premature.

Thus, a request for entry of

Moreover, despite failing to file a timely answer,

defendants have demonstrated an intent to “otherwise defend” by opposing CRBT’s
motion to appoint receiver.

While this does not excuse their failure to file an answer, I

find it more appropriate to address CRBT’s motion for summary judgment.

3.

Summary Judgment
a.

Breach of Contract Claims

CRBT seeks summary judgment on all counts.

It argues it is entitled to a money

judgment based on the defaults under the terms of the loan documents.
as described above, are undisputed.

Those defaults,

As such, CRBT is entitled to summary judgment

on its breach of contract claims (Counts 1 through 3).

To prove a breach of contract,

CRBT must prove: (1) the existence of a contract, (2) the terms and conditions of the
contract, (3) CRBT has performed all the terms and conditions required under the
contract, (4) the defendants breached the contract in some way and (5) CRBT has suffered
damages as a result of the defendants’ breach.

See Molo Oil Co. v. River City Ford

Truck Sales, Inc., 578 N.W.2d 222, 224 (Iowa 1998).

The breach of contract claims

are based on the Bond and Indenture with Badgerow (Count 1), the DeBolt Guaranty
(Count 2) and Mako Guaranty (Count 3).
CRBT has established each of the above elements with its unrebutted statement of
facts and supporting documents for each count.

As the non-breaching party, CRBT is

entitled to damages in the amount that will put it in the position it would have been in if
the contract had not been breached.

See'Magnusson Agency v. Pub. Entity Nat. Co.-

Midwest, 560 N.W.2d 20, 27 (Iowa 1997).

That amount is supported by the affidavit

of David V. Castelluccio, Vice President of QCR Holdings, Inc. (CRBT’s parent and
holding company) and is undisputed.

It is also consistent with the types of damages

allowed in a breach of contract claim.

I find CRBT is entitled to judgment and damages
10

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 10 of 23

on its breach of contract claims, which is described in further detail in the conclusion
below.
b.

Attorney Fees

CRBT also seeks to recover attorney,fees and costs pursuant to the loan documents.
Section 8.03 of the Indenture provides that moneys received by CRBT resulting from the
exercise of remedies following a default shall first be applied to the payment of fees and
expenses of CRBT, including attorney fees.

See Doc. No. 4-1 at 48, 53.

The Mako

Guaranty states that Mako agrees to pay “all reasonable fees and expenses incurred by
[CRBT] in collecting any amount payable under [the Guaranty] or enforcing or protecting
its rights under the Guaranty in each case whether or not legal proceedings are
commenced.”

Doc. No. 4-15 at 3.

It specifically states that “[s]uch fees and expenses

include, without limitation, reasonable fees for attorneys, paralegals and other hired
professionals . . . .”
No. 4-16 at 3.

Id.

The DeBolt Guaranty contains the same language.

See Doc.

CRBT argues it has taken appropriate and reasonable actions to enforce

the loan documents2 and is entitled to an award of attorney fees and costs, including
attorneys’ fees and costs incurred after the entry of judgment.
Based on the contractual language described above, I find that CRBT is entitled to
recover its attorney fees and costs.

I further find, based on CRBT ’ s supporting materi als

2 These actions include the following: filing the Petition, responding to the Notice of Removal,
filing and preparing for CRBT’s motion for the appointment of a receiver, addressing the
bankruptcy filings of Mako and Badgerow, responding to motion for sanctions filed by DeBolt
in the Mako and Badgerow bankruptcy cases, responding to motions for continuation of the
automatic stay filed by DeBolt in the Mako and Badgerow bankruptcy cases, responding to
requests for use of cash collateral from Mako and Badgerow in connection with the bankruptcy
case:;, participating in motions to dismiss the Mako and Badgerow bankruptcy cases, responding
to DeBolt’s motion to disqualify counsel for CRBT, responding to DeBolt’s motion to dismiss
for failure to join a necessary party and filing this motion.
11

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 11 of 23

and defendants’ failure to resist, that the amounts CRBT requests, as itemized on page 8
of this order, supra, are reasonable and appropriate.

c.

Foreclosure

Next, CRBT argues it is entitled to an order for a decree of foreclosure.

It further

contends that pursuant to Federal Rule of Civil Procedure 57 and 28 U.S.C. § 2201, it is
entitled to a determination of the construction of the contracts and legal relations between
the parties with regard to the loan documents, liens, collateral, and a declaration of the
rights, status, legal relations, obligations and remedies of the parties.

This would

include, but is not limited to, a judgment finding that CRBT is entitled to enforce the Fee
Mortgage and security interests in the property and the other collateral according to the
terms thereof and Iowa law.

Due to the undisputed defaults under the loan documents,

CRBT seeks to foreclose the Fee Mortgage and Leasehold Mortgage by action as
provided in Iowa Code Sections 654.20 through 654.26.

The Fee Mortgage states that

upon Mako’s failure to perform under the Mako Guaranty, CRBT is entitled to take
possession of and sell the property in accordance with applicable Iowa law.
No. 4-3 at 28, 30-31.

See Doc.

The Leasehold Mortgage provides the same remedy, among

others, for a default under the Indenture.

See Doc. No. 4-4 at 37.

Leasehold Mortgage requires Badgerow to pay real estate taxes.

Additionally, the

CRBT states Badgerow

has failed to do this constituting a default under the Leasehold Mortgage.

Id. at 26, 34.

Based upon the defaults, CRBT requests a decree of foreclosure to foreclose the Fee
Mortgage and Leasehold Mortgage.

It also requests a final determination regarding the

validity, extent and priority of the interests, if any, in the Property and Collateral, claimed
by defendants pursuant to Federal Rule of Civil Procedure 57 and 28 U.S.C. § 2201.

I

find that CRBT is entitled to a foreclosure decree and final determination under the
mortgage documents and pursuant to Iowa Code §§ 654.20-26.

Such decree and final

determination will be set forth in the conclusion of this order.
12

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 12 of 23

d.

Commission of United States Marshal

With regard to any commission due to the sale of the property under 28 U.S.C.
§ 1921, CRBT argues that the United States Marshal is not entitled to a commission
because a “seizure or levy” is not required for a judicial foreclosure sale.

See James T.

Barnes & Co. v. United States, 593 F.2d 352, 353 (8th Cir. 1979) (citing in agreement
Travelers Ins. Co. v. Lawrence, 509 F.2d 83, 90 (9th Cir. 1974)).

It further argues that

prior to an amendment in 1962, the Marshal would have been entitled to the same fee
that a county sheriff would have been entitled had the sheriff conducted the sale.
Travelers Ins. Co., 509 F.2d at 90.

See

It contends this is the more reasonable position and

requests that I limit the Marshal’s commission accordingly.
The relevant section of 28 U.S.C. § 1921 provides as follows:
The United States Marshals Service shall collect a commission of 3 percent
of the first $1,000 collected and 1 Vi percent on the excess of any sum over
$1,000, for seizing or levying on property (including seizures in admiralty),
disposing of such property by sale, setoff, or otherwise, and receiving and
paying over money, except that the amount of commission shall be within
the range set by the Attorney General. [I]f the property is not disposed of
by marshal's sale, the commission shall be in such amount, within the range
set by the Attorney General, as may be allowed by the court. In any case
in which the vessel or other property is sold by a public auctioneer, or by
some party other than a marshal or deputy marshal, the commission
authorized under this subsection shall be reduced by the amount paid to
such auctioneer or other party. This subsection applies to any judicially
ordered sale or execution sale, without regard to whether the judicial order
of sale constitutes a seizure or levy within the meaning of State law. This
subsection shall not apply to any seizure, forfeiture, sale, or other
disposition of property pursuant to the applicable provisions of law amended
by the Comprehensive Forfeiture Act of 1984 (98 Stat. 2040).
28 U.S.C.A. § 1921(c)(1). The statute outlines three actions that must occur for the
Marshal to be entitled to the statutory commission: (1) seizing or levying on property,
(2) disposing of such property by sale, setoff, or otherwise and (3) receiving and paying
over money. Id. Because the Eighth Circuit has held that “a seizure or levy is not
13

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 13 of 23

required for a judicial foreclosure sale of property,” the first requirement is not met. I
agree with CRBT that the fee a county sheriff would ordinarily be entitled to receive in
conducting a foreclosure sale is a reasonable fee and that the Marshal is entitled to such
a fee here.

e.

Replevin

Finally, CRBT seeks an order for replevin. As mentioned above, the Security
Documents all provide that upon a default, CRBT is entitled to, among other things,
repossess and foreclose on the Collateral.

It is undisputed that defaults under the

Security Documents have occurred. Pursuant to Iowa Code Chapter 643, Iowa Code §
554.9102 et seq., the Loan Documents and other applicable law, CRBT is entitled to an
order for claim and delivery of the Collateral.
V.

CONCLUSION

For the reasons stated herein, CRBT’s motion (Doc. No. 75) for summary
judgment is hereby granted as follows:3

Money Judgment
1.

A money judgment shall be, and is hereby, entered in favor of CRBT and
against Badgerow, Mako, and DeBolt, jointly and severally, in the amount of
$5,222,936.13 (the Judgment). Interest and default interest shall continue to
accrue on the Judgment from and after December 1, 2017, at the current daily
rate of $1,174.21, until the date that the Judgment is entered, after which,

3 CRBT’s request for default judgment, which was included as an alternative basis for relief in
the same motion, is denied as moot.
14

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 14 of 23

interest shall accrue in accordance with applicable law. Judgment may be
enforced as provided by Iowa law.

Foreclosure of the Fee Mortgage
CRBT shall have, and is hereby awarded, the usual decree of foreclosure with

2.

respect to the Fee Mortgage.
The Fee Mortgage secures the debt represented by the Judgment and creates,

3.

imposes, and constitutes a mortgage lien upon the Fee Property, of which the
real property is legally described as:
Port of Block 23, Sioux City East Addition, in the County of Woodbury
and State of Iowa, described as follows: Beginning at the Northeast
corner of Block 23, Sioux City East Addition. County of Woodbury.
State of Iowa: thence South 89 degrees 51 minutes 52 seconds West
along the North line or said Block 23 for a distance of 64.17 feet thence;
South 0 degrees 0 minutes 11 seconds West for 105.41 feet; thence
South 89 degrees 44 minutes 11 seconds West for 8.80 feet; thence
South 0 degrees 14 minutes 13 seconds West for 2.10 feet; thence South
89 degrees 45 minutes 47 seconds East for 5.10 feet; thence South 0
degrees 14 minutes 13 seconds West for 43.50 feet; thence North 89
degrees 59 minutes 23 seconds East for 68.12 feet to a point on the East
line of said Block 23; thence due North along the East line of said Block
23 for 151.21 feet to the point of beginning.
Note: It is assumed in the foregoing legal description that the East line
of Block 23 bears due North.
4.

The mortgage lien represented by the Fee Mortgage is senior to any right, title,
and interest of the Defendants and the rights of redemption of said Defendants
and each of them, if any, shall be forever barred and foreclosed.

5.

Upon CRBT’s application, the United States Marshal, the Sheriff of Woodbury
County, Iowa, or any other entity duly authorized by law (the Seller), shall sell
15

Case 5:17-cv~04035-LTS-MAR Document 80 Filed 01/11/18 Page 15 of 23

the Fee Property, or any portion thereof, as designated by CRBT, pursuant to
the Fee Mortgage, upon notice, and in the manner prescribed by law.
CRBT may purchase the Fee Property, or any portion thereof, at a sale

6.

pursuant to the Fee Mortgage and/or by credit bidding all or any portion of the
amount secured by the Fee Mortgage (the Fee Mortgage Debt), and in such
case, the statement of such fact in the report of sale shall have the same effect
as a receipt for money paid upon a sale for cash, and shall reduce the amount
of the Judgment and the amount of the Fee Mortgage Debt.
The Defendants are barred and foreclosed from asserting right, title or interest

7.

in the Fee Property.
CRBT shall state at the time of the foreclosure sale whether the foreclosure of

8.

the Fee Mortgage is subject to the Master Lease and/or the Sublease. That fact
shall then be included on the deed. If the foreclosure sale is not subject to the
Master Lease and/or the Sublease, the Master Lease and/or the Sublease shall
be extinguished. If the foreclosure sale is subject to the Master Lease and/or
the Sublease, the Master Lease and/or the Sublease shall remain as interests in
the Fee Property.
Issuance of special execution for the foreclosure sale of the Fee Property, or

9.

any portion thereof, shall occur at such time as determined by CRBT and in
CRBT’s discretion.

10.

There shall be no redemption period after such sale, and none of the Defendants
shall have any right to redeem after sale, and the provisions of Iowa Code §
654.23 shall apply to the sale.
16

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 16 of 23

11.

The Seller shall without delay issue and deliver a deed to the purchaser under
the foreclosure sale, whereupon the rights, titles, interests, liens, claims, and
easements, of each and every Defendant shall be extinguished, foreclosed,
voided, and forever barred, and whereupon the purchaser shall have clear title
to the Fee Property or whatever portion thereof was sold.

12.

The purchaser at the sale shall be entitled to immediate possession of the Fee
Property, that was sold, and if necessary a Writ of Possession or other
appropriate order shall issue commanding it to put the purchaser under the
foreclosure sale in possession thereof.

13.

The United States Marshal’s commission shall not exceed the commission to
which the Sheriff of Woodbury County, Iowa would be entitled to under
applicable Iowa law.

Foreclosure of the Leasehold Mortgage
14.

CRBT shall have, and is hereby awarded, the usual decree of foreclosure with
respect to the Leasehold Mortgage.

15.

The Leasehold Mortgage secures the debt represented by the Judgment and
creates, imposes, and constitutes a mortgage lien upon the Leasehold Property,
of which the real property is legally described as:
Port of Block 23, Sioux City East Addition, in the County of Woodbury
and State of Iowa, described as follows: Beginning at the Northeast
corner of Block 23, Sioux City East Addition. County of Woodbury.
State of Iowa: thence South 89 degrees 51 minutes 52 seconds West
along the North line or said Block 23 for a distance of 64.17 feet thence;
South 0 degrees 0 minutes 11 seconds West for 105.41 feet; thence
South 89 degrees 44 minutes 11 seconds West for 8.80 feet; thence
South 0 degrees 14 minutes 13 seconds West for 2.10 feet; thence South
17

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 17 of 23

89 degrees 45 minutes 47 seconds East for 5.10 feet; thence South 0
degrees 14 minutes 13 seconds West for 43.50 feet; thence North 89
degrees 59 minutes 23 seconds East for 68.12 feet to a point on the East
line of said Block 23; thence due North along the East line of said Block
23 for 151.21 feet to the point of beginning.
Note:

16.

It is assumed in the foregoing legal description that the East
line of Block 23 bears due North.

The mortgage lien represented by the Leasehold Mortgage is senior to any
right, title, and interest of the Defendants and the rights of redemption of said
Defendants and each of them, if any, shall be forever barred and foreclosed.

17.

Upon CRBT’s application, the United States Marshal, the Sheriff of Woodbury
County, Iowa, or any other entity duly authorized by law (the Seller), shall sell
the Leasehold Property, or any portion thereof, as designated by CRBT,
pursuant to the Leasehold Mortgage, upon notice, and in the manner prescribed
by law.

18.

CRBT may purchase the Leasehold Property, or any portion thereof, at a sale
pursuant to the Leasehold Mortgage and/or by credit bidding all or any portion
of the amount secured by the Leasehold Mortgage (the Leasehold Mortgage
Debt), and in such case, the statement of such fact in the report of sale shall
have the same effect as a receipt for money paid upon a sale for cash, and shall
reduce the amount of the Judgment and the amount of the Leasehold Mortgage
Debt.

19.

The Defendants are barred and foreclosed from asserting right, title or interest
in the Leasehold Property that is sold.

-18

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 18 of 23

20.

CRBT shall state at the time of the foreclosure sale whether the foreclosure of
the Leasehold Mortgage is subject to the Master Lease and/or the Sublease.
That fact shall then be included on the deed. If the foreclosure sale is not subject
to the Master Lease and/or the Sublease, the Master Lease and/or the Sublease
shall be extinguished. If the foreclosure sale is subject to the Master Lease
and/or the Sublease, the Master Lease and/or the Sublease shall remain as
interests in the Leasehold Property.

21.

Issuance of special execution for the foreclosure sale of the Leasehold
Property, or whatever portion thereof is sold, shall occur at such time as
determined by CRBT and in CRBT’s discretion.

22.

There shall be no redemption period after such sale, and none of the Defendants
shall have any right to redeem after sale, and the provisions of Iowa Code
section 654.23 shall apply to the sale.

23.

The Seller shall without delay issue and deliver a deed to the purchaser under
tire foreclosure sale, whereupon the rights, titles, interests, liens, claims, and
easements, of each and every Defendant shall be extinguished, foreclosed,
voided, and forever barred, and whereupon the purchaser shall have clear title
to the Leasehold Property or whatever portion thereof was sold.

24.

The purchaser at the sale shall be entitled to immediate possession of the
Leasehold Property that was sold, and if necessary a Writ of Possession or
other appropriate order shall issue commanding it to put the purchaser under
the foreclosure sale in possession thereof.

19

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 19 of 23

25.

The United States Marshal’s commission shall not exceed the commission to
which the Sheriff of Woodbury County, Iowa would be entitled to under
applicable Iowa law.

Replevin (Claim and Delivery)
26.

Upon CRBT’s request, Mako and Badgerow shall: (a) immediately surrender
and deliver to CRBT possession, custody and control of all of the Collateral,
including without limitation all inventory, cash, chattel paper, accounts,
furniture, fixtures, equipment, and general intangibles together with all
proceeds of the same; (b) deliver to CRBT originals or true and correct copies
of all books, records, documents or materials relating in any manner
whatsoever to the Personal Property; (c) generally provide immediate and full
cooperation and assistance to CRBT, including the prompt answering of verbal
and written questions directed from CRBT so as to enable CRBT to identity,
gather and liquidate the Collateral and proceeds of the Collateral; and (d) advise
CRBT and the United States Marshal, the Sheriff of any county in which any
of the Collateral or its proceeds may be found, or any entity duly authorized
by law (the “Replevin Agent”) of the exact whereabouts of the Collateral.

27.

Mako and Badgerow shall not damage, secrete, use, sell, lease, transfer,
assign, convey, or encumber any of the Collateral.

28.

Upon CRBT’s request, the Replevin Agent shall seize and without delay deliver
to CRBT any of the Collateral or its proceeds found in said county.

29.

If the Collateral or any of it or its proceeds is concealed in a building or
elsewhere, and a public demand for its delivery is made by the Replevin Agent
20

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 20 of 23

is refused or there is no response, the Replevin Agent shall cause the building
or enclosure to be broken open and shall take the Collateral or any of it or its
proceeds therefrom.
30.

CRBT and its agents are authorized to accompany the Replevin Agent for
purposes of locating, identifying, and arranging for the delivery of the
Collateral.

31.

After recovering the Collateral, CRBT is authorized to sell or otherwise
dispose of some or all of the Collateral in accordance with under Iowa Code
Chapter 643, Iowa Code Section 554.9102 et seq., or other applicable law. If
the Collateral, or any portion thereof, is sold by public sale, publishing notice
of such sale once a week for four weeks in a local newspaper shall be deemed
commercially reasonable.

32.

CRBT may, at CRBT’s discretion, direct the Replevin Agent not to seize or
deliver to CRBT any particular item of Collateral, including without limitation
any item of Collateral that may be hazardous waste.

33.

CRBT may, at its option and as an alternative to removing the Collateral,
inventory the Collateral and store the Collateral at the premises on which the
Collateral was found or any other location and arrange for a liquidation or sale
of the Collateral on such premises or other location under Iowa Code Chapter
643 and Iowa Code Section 554.9102 et seq. CRBT and the Replevin Agent
are authorized to remain in possession of and shall have access to said premises
or other location until such time as the liquidation of the Collateral is complete.

21

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 21 of 23

Related Orders
34.

CRBT shall be entitled, at any time, both before and after the foreclosure sale
contemplated by this Order, to petition the Court to add to the Judgment, the
Fee Mortgage Debt, and the Leasehold Mortgage Debt all costs and expenses
that are recoverable under the Loan Documents, including without limitation,
all court costs, expenses, including without limitation, all costs and expenses
incurred in improving or maintaining the Property or the Collateral or
preventing waste to the Property or the Collateral, and all fees, including
attorneys’ fees, incurred by CRBT. Such amounts, if incurred before the
foreclosure sale, may be included in any bids submitted by CRBT in connection
with the foreclosure sale.

35.

This Order does not purport to set forth an exhaustive list of CRBT’s collateral,
nor is this Order intended to limit the cumulative rights and remedies available
to CRBT under applicable law, all of which rights and remedies are preserved
and may be exercised as appropriate, with or without further order of this
Court.

36.

CRBT may seek attorneys’ fees and costs to be added to the Fee Mortgage
Debt and the Leasehold Mortgage Debt by submitting an affidavit from CRBT
or CRBT’s counsel identifying such fees and costs. In addition, CRBT may
seek to add additional interest to the Judgment or submitting an affidavit from
CRBT stating the additional interest to be added.

37.

Nothing in this Order, or the entry hereof or the entry of the Judgment, shall
cause the lien of the Fee Mortgage, the Leasehold Mortgage, the Security
Documents or the terms, rights, and remedies of any of the other Loan
22

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 22 of 23

Documents to merge with this Order or the Judgment, or in any manner to
otherwise impair the security or priority of CRBT’s mortgage lien, the security
interests, or CRBT’s rights and remedies under the Loan Documents and
applicable law. To the contrary, all such liens, security interests, terms, rights,
and remedies are expressly preserved for CRBT’s benefit.
38.

CRBT may add parties to this action, both before and after entry of Judgment,
as needed to extinguish any interests held by third parties in the Property or
the Collateral or any portion thereof.

IT IS SO ORDERED.
DATED this 11th day of January, 2018.

Leonard T. Strand, Chief Judge

23

Case 5:17-cv-04035-LTS-MAR Document 80 Filed 01/11/18 Page 23 of 23

*

APPENDIX B

®ntteb i?tate£ Court of appeals
jfor t\)t OEtgptlj Circuit
No. 18-1298
Cedar Rapids Bank and Trust Company
Plaintiff - Appellee
v.

Mako One Corporation, et al.
Defendant - Appellant
Appeal from United States District Court
for the Northern District of Iowa
Submitted: November 13, 2018
Filed: March 21, 2019
Before BENTON, BEAM, and ERICKSON, Circuit Judges.

ERICKSON, Circuit Judge.
In August 2013, Mako One Corporation (“Mako”) acquired the historic
Badgerow Jackson Building in downtown Sioux City, Iowa, intending to restore it
using state and federal historic tax credits. To help finance the $17 million
restoration project, Mako prepared a tax credit bond offering of $6 million. Mako
retained the law firm of Winthrop & Weinstine (“Winthrop”) to draft the tax credit

1 of 15
Appellate Case: 18-1298

Page: 1

Date Filed: 03/21/2019 Entry ID: 4769155

bond. Nine months later, Cedar Rapids Bank and Trust Company (“CRBT”) retained
Winthrop to represent it in connection with the Badgerow building tax credit project.
In April 2017, after Mako and Badgerow failed to make any payments on the lease,
CRBT, through counsel Winthrop, sought to foreclose on the Badgerow Building.
Mako retained separate counsel and moved to dismiss for failure to join a necessary
party and to disqualify Winthrop as CRBT’s counsel. The district court denied both
motions and awarded a judgment of $5.2 million in favor of CRBT. Mako appeals
the denial of its motions, and additionally appeals the validity of the final judgment.
We affirm in part, and reverse in part.
I.

Background

In August 2013, Mako acquired the historic Badgerow Jackson Building in
downtown Sioux City, Iowa. To help finance the $17 million restoration project,
Mako, Badgerow, and Bruce DeBolt (president of Mako) prepared a tax credit bond
offering of $6 million, to be repaid within one year, which CRBT purchased in
entirety. To secure the bond, Mako and Badgerow executed and delivered to CRBT
mortgages on the building. Mako leased the building to Badgerow, which subleased
it to co-defendant Badgerow Jackson MT, LLC (“MT”), of which Chevron USA, Inc.
(“Chevron”) owns 99.99%. Pursuant to an agreement between the two Badgerow
companies, Chevron promised, upon satisfaction of certain conditions, to make
capital contributions to MT for payment'of the lease in exchange for any federal tax
credits generated by the property.
When Mako first became interested in purchasing the property in November
2011, it retained the law firm of Winthrop & Weinstine. Winthrop attorney Jon
Peterson provided legal services to Mako from November 2011 to May 2012 “in
connection with [the] Badgerow Building tax credit project.” Nine months later, in
February 2013, CRBT sought to retain Winthrop to represent it in connection with
the Badgerow building tax credit project. While foreseeing no conflict, Winthrop,
-22 of 15
Appellate Case: 18-1298

Page: 2

Date Filed: 03/21/2019 Entry ID: 4769155

exercising “an abundance of caution,” prepared a conflicts waiver letter for CRBT
and Mako.
Addressed to both parties, the letter began by noting that “the interests of
[CRBT] and Mako One are or may be adverse” with regard to the Badgerow tax
credit project. Winthrop then requested consent from both parties with regard to
current and future representation of CRBT and Mako One “on matters unrelated to
the Transaction” and to Winthrop’s “representation of the bank in connection with

'x

the Transaction.” In accordance with the rules of professional responsibility, the
letter then assured both parties that Winthrop “will not use confidential client
information to either client’s disadvantage” and “will be able to fully and properly
represent [CRBT] and Mako One on their separate matters without representation of
either client being affected by [Winthrop’s] representation of the other client.” The
letter then requested that Mako agree to Winthrop’s representation of CRBT in the
transaction and unrelated matters, and promised that “[Mako] will not use the fact of
our representation of the Bank as a basis to claim a conflict of interest on the part of
[Winthrop], or to seek disqualification of the Firm, in any matter in which [Winthrop]
represents] the Bank or may represent Mako One, other than the Transaction . . . .”
(emphasis added). The letter similarly requested that CRBT agree to Winthrop’s
“representation of Mako One now or in the future in matters unrelated to the
Transaction,” and that CRBT would “not use the fact of our representation of Mako
One as a basis to claim a conflict of interest on the part of [Winthrop], or to seek
disqualification of the Firm, in any matter in which [Winthrop] represents] the Bank
or may represent the Bank, including the Transaction . . . .” (emphasis added).
Finally, the letter states that “[i]n the event that contentious disputes or litigation arise
regarding the Transaction or if the Firm determines that continued representation may
violate applicable Rules of Professional Conduct, the Firm will withdraw from

-33 of 15
Appellate Case: 18-1298

Page: 3

Date Filed: 03/21/2019 Entry ID: 4769155

representation of Mako One or the Bank.”1 The letter was then signed by DeBolt on
behalf of Mako One and Gary Becker on behalf of CRBT.
Winthrop represented CRBT for the remainder of the transaction, and Mako
One retained the Heidman Law Firm. After the transaction closed in 2013, the parties
negotiated and amended the bond maturity date six times, ultimately extending it to
December 2016. Winthrop represented CRBT in all of these subsequent
amendments, and Mako was represented by Kutak Rock LLP.
In April 2017, after Mako and Badgerow failed to make any payments on the
lease, CRBT sought to foreclose on the Badgerow Building without redemption in the
Iowa state courts. Mako removed the case to the Northern District of Iowa. After suit
was filed, DeBolt wrote to Winthrop:
I believe Norm [Jones] has serious conflict issues at this point in time as
the firm is required to withdraw from representing the bank. I agreed to
his representation of the bank for only so long as there was no
adversarial conflict between Badgerow’s interests and the bank’s
interests. As that conflict has now occurred I believe Norm, and the
firm, should immediately withdraw entirely from the matter. Norm’s
actions have already damaged our legal position. The firm may be
responsible for losses that are incurred as a result.
Winthrop partner Norman Jones responded:
On your statement about legal conflict, please review with counsel the
conflict waiver letter that Mako One signed as a former client of the firm
in early 2013. The letter requires us to withdraw from representing both
the bank and Mako One in the case of a contentious dispute. Winthrop’s
'The original draft sent to Mako stated that Winthrop “may withdraw from the
representation of Mako One or the Bank,” however Mako demanded that “may” be
changed to “will.”
.4.

4 of 15
Appellate Case: 18-1298

Page: 4

Date Filed: 03/21/2019 Entry ID: 4769155

last work for Mako One was approximately 5 years ago and it is not a
current client.
Mako claims that this was the first time Winthrop claimed the firm no longer
represented Mako.
During the foreclosure proceeding, CRBT moved to have a receiver appointed.
The motion was set for hearing on June 21,2017. The day before the hearing, Mako
and Badgerow both filed for bankruptcy in California. As a result, the district court
cancelled the hearing and stayed the foreclosure action. The bankruptcy proceeding
was ultimately dismissed in November 2017 for failure to prosecute.
The court then held evidentiary hearings and oral arguments on three motions:
CRBT’s motion to appoint a receiver; Mako’s motion to dismiss for failure to join
Chevron as a necessary party; and Mako’s noil-dispositive motion to disqualify
Winthrop as CRBT’s counsel (“November motions”). At the evidentiary hearing,
Mako made an oral motion to exclude the testimony of Winthrop partner Norman
Jones, who did not serve as an advocate during the hearing. During oral argument,
Mako represented that it could produce legal authority that the case should be
dismissed with prejudice due to Winthrop’s conflict of interest. The district court
reserved decision on defendant’s motions until receipt ofthe promised legal authority.
While awaiting the supplemental filing, the district court granted CRBT’s motion to
appoint a receiver. Counsel for Mako filed a supplemental list of authorities, which
the district court concluded were inapposite. The district court denied all three of
Mako’s motions in a written order.
In December 2017, CRBT filed a motion for default judgment or, in the
alternative, summary judgment. Mako did not oppose the motion, and the court
entered judgment in favor of CRBT, including a money judgment of $5.2 million.
Mako then filed a motion to set aside judgment pursuant to Federal Rule of Civil
-55 of 15
Appellate Case: 18-1298

Page: 5

Date Fifed; 03/21/2019 Entry ID: 4769155

Procedure 60(b) and to stay the case, presenting the court with various assertions
regarding CRBT’s receipt of state and federal tax credits from construction on the
Badgerow Jackson Building. The district court found Mako’s assertions internally
contradictory and unsupported by evidence, and denied Mako’s motion.
Mako now appeals the denial of the November motions, and additionally
argues that the district court erred (1) in proceeding to the merits before deciding the
disqualification motion, and (2) in closing the case while the receiver’s obligations
are ongoing. The latter argument was not raised below and we will not ordinarily
consider an argument raised for the first time on appeal. Gap, Inc, v. GK
Development, Inc., 843 F.3d 744, 748 (8th Cir. 2016) (quoting United States v.
Hirani, 824 F.3d 741,751 (8th Cir. 2016)). We have set forth limited exceptions to
our general rule. We have exercised discretion to consider an issue raised on appeal
for the first time when “the proper resolution is beyond any doubt... or when the
argument involves a purely legal issue in which no additional evidence or argument
would affect the outcome of the case.” Id at 748-49 (quoting Weitz Co. v. Lloyd’s
of London, 574 F.3d 885, 891 (8th Cir. 2009)). Mako has set forth no legal authority
for its assertion that the district court acted improperly in closing the case. We find
the claim without merit.
II.

Discussion
A. Motion to Dismiss for Failure to Join a Necessary Party

“We review de novo conclusions of law underlying a district court’s Rule 19(a)
determination.” Two Shields v. Wilkinson, 790 F.3d 791, 794-95 (8th Cir. 2015)
(citing Gwartz v. Jefferson Mem’l Hosp. Ass’n, 23 F.3d 1426,1428 (8th Cir. 1994)).
Mako argues that the district court erred in denying its motion to dismiss the action
for failure to join Chevron as a necessary party pursuant to Federal Rule of Civil
Procedure 19(a)(1). Mako claims that Chevron is a necessary party because the
-66 of 15
Appellate Case: 18-1298

Page: 6

Date Filed: 03/21/2019 Entry ID: 4769155

judgment impairs Chevron’s ability to protect its interest in the Badgerow Jackson
Building federal tax credits. Mako cites only the rule in support of this claim.
Rule 19(a)(1) states:

t

(1) Required Party. A person who is subject to service of process and
whose joinder will not deprive the court of subject-matter jurisdiction
must be joined as a party if:
(A) in that person’s absence, the court cannot accord complete
relief among existing parties; or
(B) that person claims an interest relating to the subject of the
action and is so situated that disposing of the action in the
person’s absence may:
(i) as a practical matter impair or impede the person’s
ability to protect the interest; or
(ii) leave an existing party subject to a substantial risk of
incurring double, multiple, or otherwise inconsistent
obligations because of the interest.
Fed. R. Civ. P. 19(a)(1).
Mako has rai sed a number of issues that are unsupported in the record and will
not be considered. Mako’s claims that Chevron purchased Mako’s contractual rights
to $3.2 million in tax credits (which it asserts exposes it to potential but un-asserted
claims) and Mako’s claims related to a “Super Non-Disturbance Agreement” are
simply inadequately developed in this record to provide any ground for relief.

.-77 of 15
Appellate Case: 18-1298

Page: 7

Date Filed: 03/21/2019 Entry ID: 4769155

Even if Mako’s claims related to Chevron’s contractual rights were somehow
implicated, it would not make Chevron a necessary party. As the district court
correctly pointed out, “[t]he focus [of Rule 19(a)(1)] is on relief between the parties
and not on the speculative possibility of further litigation between a party and an
absent person.” LLC Corp. v. Pension Ben. Guar. Corn., 703 F.2d 301,305 (8th Cir.
1983) (citing Morgan Guaranty Trust Co. v. Martin, 466 F.2d 593, 598-99 (7th Cir.
1972)); see also Helzberg’s Diamond Shops, Inc, v. Valley W. Des Moines Shopping
Ctr., Inc., 564 F.2d 816, 820 (8th Cir. 1977) (citation omitted) (“[A] person does not
become indispensable to an action to determine rights under a contract simply
because that person’s rights or obligations under an entirely separate contract will be
affected by the result of the action.”). The district court was able to accord complete
relief among existing parties.
B. Damages Award
Mako challenges the damages award in this case. “In a bench trial, ascertaining
the plaintiff’s damages is a form of fact-finding that can be set aside only if clearly
erroneous.” Hall v, Gus Construction Co., Inc., 842 F.2d 1010,1017 (8th Cir. 1988)
(citing Webb v. Arresting Officers, 749 F.2d 500, 501-02 (8th Cir. 1984)). We
reverse such findings “only in those rare situations where we are pressed to conclude
that there is plain injustice or a monstrous or shocking result.” IcL (internal quotation
marks omitted) (quoting Occhino v. United States, 686 F.2d 1302, 1305 (8th Cir.
1982)). In other words, it must “strike us as wrong with the force of a five-week-old,
unrefrigerated dead fish.” Kaplan v. Mayo Clinic, 847 F.3d 988, 992 (8th Cir. 2017)
(quoting In re Nevel Props. Corp., 765 F.3d 846, 850 (8th Cir. 2014)).
In its Rule 60(b) motion requesting relief from the judgment, Malco asserted
that CRBT had received over $5 million in state and federal tax credits. The district
court found this assertion to be unsupported in the record and denied the motion.
Mako now argues that the district court erred in calculating the money judgment
-88 of 15
Appellate Case: 18-1298

Page: 8

Date Filed: 03/21/2019 Entry ID: 4769155

without factoring in CRBT’s received tax credits. Here on appeal Mako once again
fails to point to any evidence in the record supporting this claim. The district court
properly concluded that no evidence in the record supports this claim.
C. Motion to Disqualify Counsel
“We review the grant of a motion to disqualify a lawyer as trial counsel for an
abuse of discretion, but because the potential for abuse by opposing counsel is high,
the Court subjects such motions to particularly strict scrutiny.” Zerger & Mauer LLP
v. City of Greenwood, 751 F.3d 928, 931 (8th Cir. 2014) (quoting Droste v. Julien,
477 F.3d 1030, 1035 (8th Cir. 2007)).
The Northern Di strict of Iowa applies the Iowa Rules of Professional Conduct
to members of the District Court’s bar. See Northern District of Iowa Local Rule
83(f)(1) (2018). These rules apply to conflicts of interest involving former clients.
See Iowa Rules of Professional Conduct 32:1.9 (2012). The parties have spilled
much ink in the briefing arguing whether CRBT is a current client of the Winthrop
firm. We need not resolve the question as it is undoubtedly true that Mako is a
former client to whom the Winthrop firm owed a duty to avoid conflicts. Rule
32:1.9(a) states:
A lawyer who has formerly represented a client in a matter shall not
thereafter represent another person in the same or a substantially related
matter in which that person’s interests are materially adverse to the
interests of the former client unless the former client gives informed
consent, confirmed in writing.
Iowa R. Prof. Conduct 32:1.9 (2012). There is no question that, in representing
CRBT in the purchasing of the very bond it had drafted for Mako in 2012, Winthrop
undertook to represent another person in a matter “substantially related” to the matter
of the Mako representation. See id. cmt. 3 (“Matters are ‘substantially related’ for
purposes of this rule if they involve the same transaction.”).
-99 of 15
Appellate Case: 18-1298

Page: 9

Date Filed: 03/21/2019 Entry ID: 4769155

Under Rule 32:1.9, a conflict can be waived only if the former client consents
in writing after being fully informed. Under Iowa law informed consent “denotes the
agreement by a person to a proposed course of conduct after the lawyer has
communicated adequate information and explanation about the material risks of and
reasonably available alternatives to the proposed course of conduct.” Iowa R. Prof.
Conduct 32:1.0 (2012). The drafter’s comment on this section elaborates on informed
consent:
Ordinarily, [informed consent] will require communication that includes
a disclosure of the facts and circumstances giving rise to the situation,
any explanation reasonably necessary to inform the client or other
person of the material advantages and disadvantages of the proposed
course of conduct, and a discussion of the client’s or other person’s
options and alternatives.... [A] lawyer who does not personally inform
the client or other person [of facts or implications] assumes the risk that
the client or other person is inadequately informed and the consent is
invalid.
Id. cmt. 6 (alterations added).
Winthrop’s consent waiver letter is inadequate to meet the requirements of this
rule. It makes no attempt to explain to Mako the advantages, disadvantages, risks or
benefits that Mako would confront by allowing Winthrop to represent CRBT.
Indeed, the letter makes no pretense to elucidate any risk involved, stating only that
“the interests of the Bank and Mako One are or may be adverse.” This representation
hangs in the air unexplained, allowing the reader to pour into it any content he might
deem to. Even more troubling, the third paragraph asks Mako to agree that it will not
claim a conflict of interest or seek disqualification against Winthrop in any matter
other than the transaction. This would seem to resolve the conflict question in its
entirety, as Mako has timely claimed a conflict in this transaction. Winthrop claims
that this “drafting error” was understood to mean something different by Mako. This
assertion, too, flutters in the air unsupported and is belied by the record. The record
-10ft) of 15
Appellate Case: 18-1298

Page: 10

Date Filed: 03/21/2019 Entry ID: 4769155

does not contain evidence sufficient to establish a mutual mistake, or any other legal
basis for reformation of the language. But in the end, the problem the Winthrop firm
confronts is that no informed consent was ever obtained from Mako. Mako was never
informed that its counsel would represent CRBT in a suit related to the very same
bonds that it drafted on Mako’s behalf. Winthrop did not inform Mako that it was
remotely possible that Winthrop would go so far as to call one of its own partners to
testi fy against Mako in an action related to its representation of Mako. Under these
circumstances, we conclude that informed consent was not obtained and Mako did
not validly waive the conflict of interest;
Mako next argues that the district court erred in proceeding to the merits before
deciding the disqualification motion. However, this is a mis-characterization of the
procedural history. The district court made only one ruling while awaiting Mako’s
production of legal authority supporting disqualification of counsel, and that was to
approve CRBT’s request to appoint a receiver. This was not a ruling on the merits,
which came months later when the court granted an unopposed motion for summary
judgment. Mako makes no argument that the appointment of the receiver was a
dispositive order; instead it simply cites Bowers v. The Ophthalmology Group, 733
F.3d 647 (6th Cir. 2013), as supporting its position. In Bowers, the Sixth Circuit held
that the district court erred by granting summaiy judgment without ruling on a motion
to disqualify counsel and then declaring the disqualification motion moot. Id. at 655.
Here, the district court made no such ruling on the merits before deciding the motion
to disqualify counsel. Bowers is distinguishable, and does not conflict with the
district court’s order of procedure.
Because we conclude that the district court erred in failing to disqualify
Winthrop as counsel for CRBT, we must consider the appropriate remedy. The
question is whether the failure to disqualify Winthrop “indelibly stamped or shaped”
the proceedings. Firestone Tire & Rubber Co. v. Risjord, 449 U.S. 368, 376 (1981).
In Fiandaca v. Cunningham, 827 F.2d 825 (1 st Cir. 1987), the First Circuit grappled
-1111 of 15
Appeiiate Case: 18-1298

Page: 11

Date Filed: 03/21/2019 Entry ID: 4769155

with a similar issue. Like this case, the First Circuit concluded that the trial court had
allowed a lawyer to continue representation despite an apparent conflict. Id at 831.
The court than considered whether the court’s abuse of its discretion resulted in an
adverse impact on the rights of the opposing party. Concluding that there was none,
the court found the error harmless. Id at 831-32. We find this analysis persuasive.
Here Winthrop had no compromised ability to settle with Mako, nor has Mako
pointed to any change in its settlement posture because of the improper
representation. Given the combative procedural history of this case, it appears the
parties were unlikely to settle, regardless of representation.
With regard to the merits, Mako has not claimed that Winthrop used
confidential information gained from preparing Mako’s bond during its representation
of CRBT in this suit. The record reflects no actual breach of confidentiality nor any
reason to doubt that Winthrop upheld its duty of confidentiality to its former client.
Finally, it was Mako’s counsel—not Winthrop—who failed to oppose CRBT’s
motion for default judgment, or in the alternative, summary judgment. Thus, Mako’s
loss is more directly attributable to its own counsel’s failure to act than anything the
Winthrop firm did or did not do. There is no reason to believe that Mako’s lawyers
would have acted any differently had CRBT been represented by a different firm.
Given the failure to oppose the motion for judgment, there is no reason to believe that
the CRBT representation was an important, let alone determinative, fact.
Finally, Mako makes no credible claim that the ultimate outcome in the case
was in any way influenced by the conflicted representation. It points to no evidence
that was improperly used or any evidence that it was deprived from using because of
the conflict. Mako does not assert that it was deprived of a chance to advance any
argument or claim because of the representation. In short, Mako makes no showing
of harm by the representation.

-1212 of 15
Appellate Case: 18-1298

Page: 12

Date Filed: 03/21/2019 Entry ID: 4769155

III.

Conclusion

For the foregoing reasons, we affirm the district court’s judgment for money
damages, and we reverse the district court’s denial to disqualify counsel in any future
proceedings. As proceedings continue in the case below and the Winthrop law firm
has a conflict of interest necessitating removal as counsel, we remand for further
proceedings consistent with this opinion.

-1313 of 15
Appellate Case: 18-1298

Page: 13

Date Filed: 03/21/2019 Entry ID: 4769155

United States Court of Appeals
For The Eighth Circuit
Thomas F. Eagleton U.S. Courthouse
11 ] South 10th Street, Room 24.329

St. Louis, Missouri 63102
VOICE (314) 244-2400
FAX (314)244-2780
www.ca8.uscourts.gov

Michael E. Gans
Clerk of Court

March 21,2019

West Publishing
Opinions Clerk
610 Opperman Drive
Building D D4-40
Eagan, MN 55123-0000
RE: 18-1298 Cedar Rapids Bank & T rust Co. v. Mako One Corporation, et al
Dear Sirs:
A published opinion was filed today in the above case.
Counsel who presented argument on behalf of the appellants was Robert B. Patterson, of
Alexandria, VA. The following attorney appeared on the appellant brief; Zachary S. Hindman,
of Sioux City, LA.
Counsel who presented argument on behalf of the appellee was Michael A. Rosow, of
Minneapolis, MN. The following attorneys also appeared on the appellee brief; Thomas H. Boyd
and Kyle R. Kroli, of Minneapolis, MN.
The judge who heard the case in the district court was Honorable Leonard T. Strand. The
judgment of the district court was entered on January 11,2018.
if you have any questions concerning this case, please call this office.
Michael E. Gans
Clerk of Court
MER
Enclosure(s)
cc: MO Lawyers Weekly

District Court/Agency Case Number(s): 5:17-cv-04035-LTS

14 of 15
Appellate Case: 18-1298

Page: 1

Dote Filed: 03/21/2019 Entry ID: 4769155

United States Court of Appeals
For The Eighth Circuit
Thomas F. Eagleton U.S. Courthouse
111 South 10th Street, Room 24.329

St. Louis, Missouri 63102
VOICE (314) 244-2400
FAX (314) 244-2780
www.ca8.uscourts.gov

Michael E. Gans
Clerk of Court

March 21, 2019

Mr. Robert B. Patterson
LEGAL MANAGEMENT LTD
P.O. Box 682
Alexandria, VA 22313
RE: 18-1298 Cedar Rapids Bank & Trust Co. v. Mako One Corporation, et al
Dear Counsel:
The court has issued an opinion in this case. Judgment has been entered in accordance
with the opinion. The opinion will be released to the public at 10:00 a.m. today. Please hold the
opinion in confidence until that time.
Please review Federal Rules of Appellate Procedure and the Eighth Circuit Rules on post­
submission procedure to ensure that any contemplated filing is timely and in compliance with the
rules. Note particularly that petitions for rehearing and petitions for rehearing en banc must be
received in the clerk's office within 14 days of the date of the entry of judgment. Counsel-filed
petitions must be filed electronically in CM/ECF. Paper copies are not required. No grace period
for mailing is allowed, and the date of the postmark is irrelevant for pro-se-filed petitions. Any
petition for rehearing or petition for rehearing en banc which is not received within the 14 day
period for filing permitted by FRAP 40 may be denied as untimely.
Michael E. Gans
Clerk of Court
MER
Enciosure(s)
cc:

Mr. Thomas H. Boyd
Mr. Zachary S. Hindman
Mr. Kyle R. Kroll
Mr. Richard Moeller
Mr. Rob Phelps
Mr. Michael A. Rosow
District Court/Agency Case Number(s): 5:17-cv-04035-LTS

15 of 15
Appellate Case: 18-1298

Page: 1

Date Filed: 03/21/2019 Entry ID: 4769155

r

APPENDIX C

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT
No: ; 8-1298
Cedar Rapids Bank and Trust Company
Appellee
v.
Mako One Corporation, et al.
Appellants

Appeal from U.S. District Court for the Northern District of Iowa - Sioux City
(5:17-cv-0403 5-LTS)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
July 05,2019

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

Appellate Case: 18-1298

Page: 1

Date Filed: 07/05/2019 Entry ID: 4805218

